No. 19-257

 

In THE
Supreme Court of the United States

CALIFORNIA TROUT, e¢ al.,
Petitioners,

Vv.

HOopPaA VALLEY TRIBE, et ai.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the District of Columbia
Circuit

BRIEF FOR THE STATES OF OREGON,
CALIFORNIA, CONNECTICUT, DELAWARE, HAWAII,
IDAHO, ILLINOIS, INDIANA, MAINE,
MASSACHUSETTS, MICHIGAN, MINNESOTA,
MISSISSIPPI, NEW JERSEY, NEW MEXICO, NORTH
CAROLINA, RHODE ISLAND, SOUTH DAKOTA, UTAH,
WASHINGTON, AND WISCONSIN AS
AMICI CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,980 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 27, 2019.

AL.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
